Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   Medicare Beneficiary Access
  to Home Health Agencies: 2000




                   JUNE GIBBS BROWN
                    Inspector General

                     SEPTEMBER 2000
                      OEI-02-00-00320
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's New York regional office prepared this report under the direction of John I. Molnar,
Regional Inspector General, and Renee C. Dunn, Deputy Regional Inspector General. Principal
OEI staff included:


REGION
                                       HEADQUARTERS

Ellen Vinkey, Project Leader
                 Tricia Davis, Program Specialist

Jodi Nudelman
                         Brian Ritchie, Director, Technical Support Staff
Danielle Fletcher
                            Linda Moscoe, Technical Support
Judy Lin
                                     Scott Horning, Technical Support
Betti Weimersheimer, intern
                  Barbara Tedesco, Mathematical Statistician




       To obtain copies of this report, please call the New York Regional Office at 212 264-2000.
          Reports are also available on the World Wide Web at our home page address:

                                     http://www.hhs.gov/oig/oei
                       EXECUTIVE SUMMARY


PURPOSE

       To assess the effects of the interim payment system on access to home health agencies for
       Medicare beneficiaries discharged from the hospital.


BACKGROUND

       The Health Care Financing Administration asked the Office of Inspector General to assess
       the effects of the interim payment system for home health services on beneficiaries’ access
       to care. The interim payment system changed the method and level of payment to home
       health agencies and is intended to control home health spending until a prospective
       payment system is developed. Concerns have been raised that the payment limits under
       the interim payment system may adversely affect beneficiary access to home health care.
       As the implementation of the prospective payment system proceeds, continued monitoring
       of agencies’ responses to these changes is important to ensure that beneficiary access is
       not compromised.

       This inspection follows an earlier study completed by the Office of Inspector General in
       October 1999 entitled, Medicare Beneficiary Access to Home Health Agencies OEI-02-
       99-00530. In that study, most hospital discharge planners report generally being able to
       place Medicare beneficiaries with home health agencies; however, some volunteer concern
       that not all beneficiaries may be getting adequate care. This study follows up on those
       concerns and is part of a series of inspections that the Office of Inspector General has
       conducted on home health care.

       For this study we interviewed a random sample of 202 hospital discharge planners, as well
       as analyzed data from the Health Care Financing Administration related to discharges to
       home health agencies and hospital lengths of stay.


FINDINGS

Almost All Medicare Beneficiaries Can be Placed With Home Health Care

       Most Medicare beneficiaries can be placed. Eighty-seven percent of discharge planners
       report they can place all of their patients. Another 6 percent estimate between 1 and 5
       percent of patients cannot be placed, while the remaining discharge planners put the
       estimate above 5 percent. Patients who cannot be placed reportedly remain in the


   Medicare Beneficiary Access to HHAs: 2000    i                                     OEI-02-00-00320
       hospital, go to a nursing facility, or are cared for by family or friends at home.

       Among those Medicare patients whom discharge planners say they cannot place are some
       who are no longer eligible due to recent changes in eligibility. When discharge planners
       responded to our question on the percentage they could not place, some may have
       included beneficiaries whose need for venipuncture alone no longer qualifies them for
       home care.

       In a separate effort to assess patient access to home health care under the interim payment
       system, we compared pre- and post-interim payment system data for patients in the 12
       diagnosis related groups most commonly discharged to home health agencies. With the
       exception of one diagnosis related group (106- coronary bypass), we found no substantial
       decreases. This seems to indicate that, in general, patients with these medical conditions
       are not being denied access to home health care.

       Some experience delays. Seventy-eight percent of discharge planners report that they
       rarely or never experience delays in placing Medicare patients. Nineteen percent report
       they sometimes do. When we asked discharge planners whether delays are more common
       now than before the interim payment system, 74 percent report there has been no change,
       while 20 percent report that they are more common under the interim payment system.

       However, in a separate analysis based on data from the Health Care Financing
       Administration, we found that for the 12 diagnosis related groups most commonly
       discharged to a home health agency, there were no substantial increases in the average
       hospital length of stay. In fact, for all but one diagnosis related group, there was a
       decrease.

Changes in The Medicare Home Care Environment Have Affected The Placement
Process

       Stricter enforcement. Discharge planners report that during the placement process,
       home health agencies are now looking more carefully at whether patients meet Medicare
       homebound and skilled need eligibility requirements. This may be a result of recent
       enforcement activities by the Health Care Financing Administration and the Office of
       Inspector General.

       Focus on medical conditions. Some discharge planners suggest agencies are using
       information on medical condition and service needs to screen certain patients. On the
       occasions when there are placement delays, discharge planners most commonly cite
       problems with patients needing IV antibiotics or expensive drugs. They also cite delays in
       placing patients who have decubitus ulcers or who need other wound care, as well as
       those who need rehabilitation. On average, about a third who cite delays due to medical
       conditions attribute these delays directly to the interim payment system.




   Medicare Beneficiary Access to HHAs: 2000      ii                                        OEI-02-00-00320
      Fewer home health agencies. Forty-two percent of discharge planners report that the
      availability of home care for Medicare patients in their area has decreased since the
      implementation of the interim payment system. Analysis of data from the Health Care
      Financing Administration show a 25 percent decrease in home health agencies from 1997
      to 1999. A small number of discharge planners we spoke with volunteered that home
      health agency closures in their area were making the process of placement more difficult.
      Some of them attribute these closures to the interim payment system.

      Staffing shortages. There appears to be a drop in home health care staffing in some
      areas. About one quarter of discharge planners report home health staffing shortages in
      their area have contributed to delays in placement. Those who volunteered this
      information most commonly attribute the shortage to payments under the interim payment
      system.




CONCLUSION

      The findings of this follow-up study are consistent with those in original study “Medicare
      Beneficiary Access to Home Health Agencies, OEI-02-99-00530.” There appear to be no
      major disruptions in placing Medicare hospital patients with home health agencies. To the
      extent that there are some disruptions, they appear to be localized.

Agency Comments

      The Health Care Financing Administration provided comments on this and two related
      draft reports. They concur with our conclusion that qualified Medicare beneficiaries are
      receiving the home health care they need. They also note that on October 1, 2000, the
      new prospective payment system for home health care will go into effect. They, like we,
      will monitor that new system to assure that beneficiaries continue to have access to home
      care. The Health Care Financing Administration comments are in Appendix E.




  Medicare Beneficiary Access to HHAs: 2000   iii                                   OEI-02-00-00320
                          TABLE                       OF             CONTENTS


                                                                                                                         PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS


          Almost All Beneficiaries Can be Placed With Home Health Care . . . . . . . . . . . . . . . . . . 6


          Changes in Home Care Environment Have Affected Placement Process . . . . . . . . . . . . . 7


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


APPENDICES


          A: Selected List of Other Recent OIG Home Health Inspections . . . . . . . . . . . . . . . . . 11


          B: Point Estimates and Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          C: Proportion of Discharges to HHAs by Top DRGs . . . . . . . . . . . . . . . . . . . . . . . . . 13


          D: Average Hospital Length of Stay by Top DRGs . . . . . . . . . . . . . . . . . . . . . . . . . . 14


          E: HCFA Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15





     Medicare Beneficiary Access to HHAs: 2000                  iv                                                 OEI-02-00-00320
                                  INTRODUCTION

PURPOSE

       To assess the effects of the interim payment system (IPS) on access to home health
       agencies for Medicare beneficiaries discharged from the hospital.


BACKGROUND

       The Health Care Financing Administration (HCFA) asked the Office of Inspector General
       (OIG) to assess the effects of the interim payment system (IPS) for home health services
       on beneficiaries’ access to care. The IPS changed the method and level of payment to
       home health agencies (HHAs) and is intended to control home health spending until a
       prospective payment system is developed. Concerns have been raised that the payment
       limits under IPS may adversely affect beneficiary access to home health care. As the
       implementation of the prospective payment system proceeds, continued monitoring of
       agencies’ responses to these changes is important to ensure that beneficiary access is not
       compromised.

       This inspection follows an earlier study completed by the OIG in October 1999 entitled,
       Medicare Beneficiary Access to Home Health Agencies OEI-02-99-00530. In that study,
       most hospital discharge planners report generally being able to place Medicare
       beneficiaries with home health agencies; however, some volunteer concern that not all
       beneficiaries may be getting adequate care. Most discharge planners further note that
       patients with chronic health care needs, and those who need IV care, high cost care, or
       intensive care have become more difficult to place in home health care and that home
       health agencies have changed their admissions practices. This study follows up on those
       concerns and is part of a series of inspections that the OIG has conducted on home health
       care. (See Appendix A.)

Medicare Home Health Care

       Home health care services consist of skilled nursing; therapy (physical, occupational and
       speech), and certain related services, including aide services, all furnished in a patient’s
       home. Services are typically provided by registered nurses, therapists, social workers, or
       home health aides employed by or under contract with a HHA. These agencies can be
       free-standing or provider-based and be classified as not-for-profit, proprietary, or
       governmental.

       Medicare will pay for home health care only if it is reasonable and necessary for the
       treatment of the patient’s illness or injury. In order to be eligible for services, a beneficiary
       must be homebound, be under the care of a physician who has established a

   Medicare Beneficiary Access to HHAs: 2000      1                                       OEI-02-00-00320
       plan of care, and need physical therapy, speech therapy, continued occupational therapy,
       or skilled nursing on an intermittent basis. There are no limits on the number of visits or
       length of coverage and no co-payments or deductibles apply.

       During much of the 1990s, Medicare spending for home health services increased
       substantially. From 1990 to 1997, expenditures rose from $3.7 billion to $17.8 billion.
       This resulted from both an increase in the number of beneficiaries who received home
       health services and an increase in the number of visits they received. In 1999, Medicare
       spending for home health services was about $9.5 billion.

       Several initiatives were implemented in response to concerns about Medicare home health
       spending and fraud and abuse. An anti-fraud campaign known as Operation Restore Trust
       employed a number of approaches and is at least partially responsible for helping to slow
       Medicare home health spending. The Health Insurance Portability and Accountability Act
       also included measures to control fraud and abuse by HHAs. Changes to Medicare
       participation rules designed to screen out problem providers as well as payment limits
       which are discussed below were also initiated.

       Two recent coverage rule changes are noteworthy. The first relates to IV antibiotic
       therapy. The HCFA issued a rule, effective September 1, 1996, that there was insufficient
       evidence to support the necessity of an external infusion pump to administer vancomycin,
       a popular broad spectrum antibiotic. Medicare covers IV drugs only when there is a
       medical necessity for them to be administered by an infusion pump. Therefore, Medicare
       no longer covers vancomycin for home care patients as it does not require a pump. The
       second change that is generally thought to have had a measurable impact on the number of
       Medicare beneficiaries eligible for home care relates to the provision of venipuncture
       services as a qualifying skilled need. Beginning on February 5, 1998, a patient's need for
       venipuncture no longer constitutes a qualifying skilled need. Prior to this change, some
       patients, for whom this was their only skilled need, qualified for home care.

The Balanced Budget Act of 1997

       The Balanced Budget Act (BBA) of 1997 changed the way Medicare pays for home
       health care. The BBA required that the existing cost-based payment system be replaced
       with a prospective payment system (PPS) of fixed, predetermined rates for home health
       services. To allow time for HCFA to develop this prospective payment system, the BBA
       mandated an interim payment system (IPS) to limit payments. The IPS became effective
       for cost-reporting periods beginning October 1, 1997, and will continue until PPS begins
       on October 1, 2000.

       The IPS is intended to control the aggregate costs of services provided to beneficiaries in
       two ways. First, it subjects Medicare HHAs to a new payment limit that is based on an
       aggregate per-beneficiary amount. This limit is based on a blend of historical per-user
       costs for the agency and agencies in the region. It is applied to an agency’s total Medicare
       payments and not to specific beneficiaries. Second, it decreases the per-visit


   Medicare Beneficiary Access to HHAs: 2000     2                                     OEI-02-00-00320
       limits from 112 percent of the national mean cost per visit to 105 percent of the national
       median. Medicare then pays HHAs the lower of their actual costs, the aggregate per-
       beneficiary limit, or the aggregate per-visit limit.

       The Omnibus Consolidated and Emergency Supplemental Appropriations Act of 1999
       moderated the restrictiveness of IPS. This legislation made several changes to the
       payment limits, including increasing the per-visit limits for all agencies and increasing the
       aggregate beneficiary limit for certain agencies. In that same year, Congress enacted the
       Medicare, Medicaid, and SCHIP Balanced Budget Refinement Act of 1999, which delayed
       a 15 percent payment reduction to be imposed with the implementation of PPS and
       increased payments under IPS to certain agencies. The changes stemmed from a concern
       that access to care was being adversely affected and that providers were overburdened.

       Under IPS, agencies can use several methods to keep costs below their payment limits,
       including balancing their mix of low and high cost patients, reducing their costs overall,
       and increasing their proportion of low-cost patients.

Prior Work on Access to Home Health Care

       Several past studies have examined access to home health care for Medicare beneficiaries.
       A recent report by the General Accounting Office found that although about 14 percent of
       HHAs have closed since 1997, there is little evidence that appropriate access to care has
       been impaired. The study found that closures occurred most frequently in areas that had
       experienced considerable growth. Additionally, interviews with 130 stakeholders in 34
       counties that had significant closures indicated few access problems. The interviews
       suggested, however, that as HHAs change their operations in response to IPS,
       beneficiaries who are likely to be costlier than average to treat may have increased
       difficulty obtaining home health care.

       A two-part study released by George Washington University (GWU) entitled, An
       Examination of Medicare Home Health Services: A Descriptive Study of the Effects of
       the Balanced Budget Act Interim Payment System on Access to and Quality of Care,
       found that the majority of HHAs participating in the study in eight States altered their case
       mix and/or practice patterns to conform utilization to IPS reimbursement. It also found
       that diabetics and other beneficiaries with more intensive care needs as well as chronically
       ill beneficiaries appeared to be most affected by IPS.

       The second phase of the GWU study focused on the experiences of discharge planners in
       eight States. It found that most hospital discharge planners reported increased difficulty in
       obtaining home health services for Medicare beneficiaries. Most attributed these increases
       to changes in admitting and practice patterns by HHAs, changes in staffing patterns, or the
       effects of agency closures in their service area. Additionally, respondents reported that
       beneficiaries most affected by these changes were those with short-term high intensity
       needs or chronic diseases, and those needing complex wound care or two




   Medicare Beneficiary Access to HHAs: 2000     3                                     OEI-02-00-00320
       visits per day.

       Similarly, a recent study sponsored by the Medicare Payment Advisory Commission that
       surveyed HHAs and held a panel discussion with individuals familiar with access problems
       found that many HHAs have adopted new admission and discharge practices since IPS
       was implemented. Agencies reported that they are avoiding high-cost patients and most
       frequently identified long-term or chronic care patients as those they no longer admitted or
       have discharged as a result of IPS.

       Finally, two reports based on early data from HCFA’s Per-Episode Home Health
       Prospective Payment Demonstration suggest that prospective payment can lower
       Medicare home health costs without harming quality of care. Specifically, the first report
       found no evidence that quality of care as measured by patient outcomes was adversely
       affected. A second report found that although the per-episode prospective payment
       demonstration substantially reduced home visits, it did not affect the use of or
       reimbursement for other Medicare-covered services, suggesting that prospective payment
       does not adversely affect quality of care. Case studies conducted early in the
       demonstration found that agencies did not change their behavior in ways that threatened
       access or quality of care. Specifically, there was no evidence that agencies changed their
       referral or admission practices to avoid costly patients or recruit lower-care ones as a
       result of per-episode PPS.


METHODOLOGY

Discharge Planner Interviews

       We used a combination of methods to analyze information for this inspection. We chose a
       random sample of 225 acute care hospitals with 30 beds or more. The sample was drawn
       from the 50 states in addition to the District of Columbia. We conducted interviews with
       202 directors of discharge planning or their designees within a three week period from
       May 22 until June 23, 2000. Twelve of the remaining 23 hospitals did not discharge
       Medicare patients to HHAs. We were unable to reach a discharge planner to schedule an
       interview at the other 11 hospitals.

Analysis of Medicare Data

       Secondly, we analyzed Medicare data. Using HCFA’s National Claims History data, we
       identified all Medicare beneficiaries who: 1) were discharged from a hospital between
       January 1, 1996, and March 31, 1996; and, 2) had a home health episode that started
       within 30 days of their hospital discharge. We then identified patients who met this
       criteria for an analogous period in 1997, 1998, 1999, and 2000. We analyzed beneficiaries
       in the diagnosis related groups (DRGs) that are most commonly discharged to HHAs for
       these five time periods. As part of this analysis we assessed whether HHAs are admitting
       different types of beneficiaries since the implementation of IPS. We also


   Medicare Beneficiary Access to HHAs: 2000    4                                     OEI-02-00-00320
    analyzed hospital length of stay for beneficiaries discharged to home health care by these
    DRGs to examine whether certain patients are experiencing longer delays before being
    admitted to HHAs since IPS. Lastly, using HCFA's Provider of Services File, we analyzed
    trends in the number of HHAs.

    This inspection was conducted in accordance with the Quality Standards for
    Inspections issued by the President’s Council on Integrity and Efficiency.




Medicare Beneficiary Access to HHAs: 2000   5                                    OEI-02-00-00320
                                           FINDINGS


Almost all Medicare beneficiaries can be placed with home
health care
Most Medicare beneficiaries can be placed

       Eighty-seven percent of discharge planners report they can place all of their patients.
       Another 6 percent estimate between 1 and 5 percent of patients cannot be placed, while
       the remaining discharge planners put the estimate above 5 percent. Patients who cannot
       be placed reportedly remain in the hospital, go to a nursing facility, or are cared for by
       family or friends at home.

       Additionally, when we asked whether the number of patients they are never able to place
       with home care has increased, decreased, or stayed the same since the implementation of
       the interim payment system (IPS), 79 percent say it has remained the same.

       It should be noted that recent changes in eligibility have had an impact on discharge
       planners' ability to place Medicare beneficiaries. As indicated in the background of this
       report, a patient’s need for venipuncture alone no longer constitutes a qualifying skilled
       need. Prior to HCFA's rule change, a significant number of patients who required
       venipuncture qualified for home care. When discharge planners responded to our question
       on the percentage they could not place, some may have included beneficiaries who are no
       longer eligible.

       In another effort to assess patient access to home health care under IPS, we compared pre-
       and post-IPS data for patients in the 12 diagnosis related groups (DRGs) most commonly
       discharged to HHAs. We did this in order to evaluate whether certain patient types were
       experiencing a reduction in access to HHAs. With the exception of one diagnosis related
       group (DRG 106 coronary bypass), we found no substantial decreases. (See Appendix C.)

Some experience delays

       Seventy-eight percent of discharge planners report that they rarely or never experience
       delays in placing Medicare patients. Nineteen percent report they sometimes experience
       delays. When we asked discharge planners whether delays are more common now than
       before IPS, 74 percent report there has been no change, while 20 percent report that they
       are more common under IPS.

       In an effort to determine whether patients with certain diagnoses are being delayed to the
       point that their hospital stays are longer, we compared pre- and post-IPS hospital lengths
       of stay for patients in the 12 DRGs most commonly discharged to HHAs. Overall, we

   Medicare Beneficiary Access to HHAs: 2000     6                                     OEI-02-00-00320
       found no substantial increases in the average hospital length of stay prior to discharge to
       an HHA. In fact, for all but one DRG, there was a decrease. (See Appendix D.)

       Finally, we asked discharge planners if the number of HHAs they need to contact in order to
       place a Medicare patient increased, decreased, or remained the same since the
       implementation of IPS. Eighty-one percent say the number of HHAs they need to contact
       has remained the same since the implementation of IPS. They contact, on average, between
       one and two agencies both before and since the implementation of IPS. Twelve percent say
       they had to contact fewer agencies before IPS. Four percent say they had to contact more
       agencies before IPS. The remaining 4 percent say they do not know.




Changes in the Medicare home care environment have
affected the placement process
       Although most discharge planners do not attribute any significant increases in access
       problems to IPS, just over 40 percent indicate they have noticed changes in the placement
       process. These changes reflect recent changes within the Medicare home care environment.

Stricter enforcement

       Discharge planners report that during the placement process, home health agencies are
       now looking more carefully at whether patients meet Medicare homebound and skilled need
       eligibility requirements. This may be a result of recent HCFA and OIG enforcement
       activities.1

Focus on medical conditions

       Some discharge planners observe that the admissions process is taking longer because
       agencies are asking for more medical information from prospective patients. They
       suggest agencies are using information on medical condition and service needs to screen
       certain patients.

       On the occasions when there are placement delays, discharge planners most commonly
       cite problems with patients needing IV antibiotics or expensive drugs. As mentioned in
       the background, vancomycin, a broad spectrum antibiotic, is no longer covered under
       Medicare. Discharge planners report that some patients tend to stay in the hospital longer
       to continue receiving IV antibiotics or are placed instead into skilled nursing facilities where
       IV antibiotic coverage is still available. Additionally, we have heard of incidents

       1
          1995 legislation established Operation Restore Trust which allocated funds to reduce fraud, waste, and abuse in the Medicare
        program. The home health benefit was one of the primary areas of focus. In addition, the Health Insurance Portability and
       Accountability Act of 1996 included measures to control fraud and abuse by HHAs.



   Medicare Beneficiary Access to HHAs: 2000                          7                                                      OEI-02-00-00320
       where discharge planners have asked hospitals to pay for IV antibiotics in order for the
       patient to receive home health care.

       Discharge planners also cite delays in placing patients who have decubitus ulcers or who
       need other wound care, as well as those needing rehabilitation. It appears that it takes
       longer to place these patients primarily because of staffing issues. Wound care patients
       often require frequent dressing changes, which may entail multiple visits per day.
       Rehabilitation patients require the assistance of physical, speech, or occupational
       therapists that some discharge planners tell us are in short supply.

       On average, only about a third of the discharge planners who cite delays in getting home
       care for patients with the previously mentioned medical conditions attribute these delays
       directly to IPS. The majority of discharge planners who say delays are associated with
       certain medical conditions or service needs attribute these delays to a wide range of
       factors. These include: HHAs not able to afford enough qualified staff to care for certain
       medical conditions; finding family members capable of providing enough care at home;
       and, rural area travel distances.

Fewer home health agencies

       Forty-two percent of discharge planners report that the availability of home care for
       Medicare patients in their area has decreased since the implementation of IPS. Analysis
       of HCFA data shows a 25 percent decrease in HHAs from 1997 to 1999. A small number
       of discharge planners we spoke with volunteered that HHA closures in their area were
       making the process of placement more difficult. Some of them attribute these closures to
       IPS.

Staffing shortages

       In addition, there appears to be a drop in home health care staffing in some areas. About
       one quarter of discharge planners report home health staffing shortages in their area have
       contributed to delays in placement. Discharge planners who volunteered this information
       most commonly attribute the shortage to IPS. They explain that because of low
       reimbursement, they believe that HHAs have cut back on staffing or have closed. These
       discharge planners say that the remaining staff have been unable to provide care for
       everyone who needs home care in their area. Other discharge planners cite labor market
       forces when asked about the cause of staff shortages. These discharge planners say that,
       in some areas, nurses and home health aides are simply in short supply.




   Medicare Beneficiary Access to HHAs: 2000     8                                    OEI-02-00-00320
                                   CONCLUSION


    The findings of this follow-up study are consistent with those in original study “Medicare
    Beneficiary Access to Home Health Agencies, OEI-02-99-00530.” There appear to be no
    major disruptions in placing Medicare hospital patients with home health agencies. To
    the extent that there are some disruptions, they appear to be localized.




Medicare Beneficiary Access to HHAs: 2000    9                                    OEI-02-00-00320
                       AGENCY COMMENTS


    The Health Care Financing Administration provided comments on this and two related draft
    reports. They concur with our conclusion that qualified Medicare beneficiaries are
    receiving the home health care they need. They also note that on October 1, 2000, the
    new prospective payment system for home health care will go into effect. They, like we,
    will monitor that new system to assure that beneficiaries continue to have access to home
    care. The Health Care Financing Administration comments are in Appendix E.




Medicare Beneficiary Access to HHAs: 2000   10                                  OEI-02-00-00320
                                                                          APPENDIX A



Selected List of Other Recent Office of Inspector General
                 Home Health Inspections

    Office of Inspector General, US Department of Health and Human Services, “Medicare
    Beneficiary Access to Home Health Agencies,” OEI-02-99-00530, October 1999.

    Office of Inspector General, US Department of Health and Human Services, “Adequacy
    of Home Health Services: Hospital Readmission and Emergency Room Visits,” OEI-02-99-
    00531, September 2000.

    Office of Inspector General, US Department of Health and Human Services, “ Medicare
    Home Health Agency Survey and Certification Deficiencies,” OEI-02-99-00532, September
    2000.




Medicare Beneficiary Access to HHAs: 2000   11                               OEI-02-00-00320
                                                                                  APPENDIX B



                      Confidence Intervals for Key Findings 

       We calculated confidence intervals for key findings for discharge planners. The point
       estimate and 95% confidence interval are given for each of the following:


                           KEY FINDINGS                         POINT           CONFIDENCE
                                                               ESTIMATE          INTERVAL

Eighty-seven percent of discharge planners report they can
place all of their patients.                                       87%              +/- 4.6

Seventy-nine percent of discharge planners say the number
of Medicare patients they cannot place with home care has          79%              +/- 7.3
remained the same since IPS.
Seventy-eight percent of discharge planners report that
they rarely or never experience delays in placing Medicare         78%              +/- 5.7
patients.
Seventy-four percent report no change in the percentage
of Medicare patients who experience a delay since IPS.             74%              +/- 6.1

Nineteen percent of discharge planners report they
sometimes experience delays in placing Medicare patients.          19%              +/- 5.4

Eighty-one percent of discharge planners report that the
number of HHAs they need to contact has remained the               81%              +/- 5.5
same since IPS.
Just over 40 percent indicate they have noticed changes in
the placement process.                                             44%              +/- 6.9

On the occasions when there are placement delays,
discharge planners most commonly cite problems with                47%             +/- 11.0
patients needing IV antibiotics or expensive drugs.
Forty-two percent of discharge planners report that the
availability of home care for Medicare patients in their           42%              +/- 6.8
area has decreased since IPS.




   Medicare Beneficiary Access to HHAs: 2000    12                                   OEI-02-00-00320
                                                                                             APPENDIX C



                    Proportion of Discharges to HHAs 

                 by Top Diagnosis Related Groups (DRGs)



                                      Percent   Percent      Percent   Percent     Percent     Difference
    Initial Hospital DRG               1996      1997         1998      1999        2000       1996-2000


DRG 106- Coronary bypass
                                         2.2      2.2          2.1       0.1          0.1          -2.1
with PTCA

DRG 014- Specific
                                         4.0      3.9          3.4       3.3          3.1          -0.9
cerebrovascular disorders

DRG 079- Respiratory
                                         1.6      1.7          1.3       1.2          1.1          -0.5
infections and inflammations

DRG 209- Major joint and limb
                                         8.1      8.0          8.3       8.0          7.7          -0.4
reattachment


DRG 148- Major small and
                                         2.1      2.0          1.9       1.8          1.7          -0.3
large bowel procedures

DRG 127- Heart failure and
                                         6.2      6.0          6.1       5.9          6.0          -0.3
shock

DRG 121- Circulatory
disorders w/acute myocardial             1.7      1.6          1.6       1.7          1.7           0.0
infarction

DRG 174- GI hemorrhage
                                         1.2      1.2          1.2       1.2          1.2           0.0
w/CC

DRG 296- Nutritional and
                                         1.5      1.5          1.5       1.6          1.6          +0.2
misc. metabolic disorders

DRG 088- Chronic obstructive
                                         3.2      3.7          4.3       4.5          4.1          +0.9
pulmonary disease

DRG 462- Rehabilitation                  5.2      5.3          5.1       5.7          6.1          +0.9

DRG 089- Simple pneumonia
                                         3.9      4.6          5.7       6.0          5.9          +2.0
and pleurisy
                                                                       Source: National Claims History File




  Medicare Beneficiary Access to HHAs: 2000             13                                      OEI-02-00-00320
                                                                                   APPENDIX D



         Average Hospital Lengths of Stay For Top 

    Diagnosis Related Groups (DRGs) Discharged to HHAs




                                         Days    Days   Days    Days        Days      Difference
    Initial Hospital DRG                 1996    1997   1998    1999        2000      1996-2000


DRG 462- Rehabilitation                   16.5   15.5   14.2     14.3       14.0          -2.5

DRG 079- Respiratory
                                          10.0   9.9    9.8      9.9         7.9          -2.1
infections and inflammations

DRG 014- Specific
                                          8.8    8.1    7.6      7.5         7.5          -1.3
cerebrovascular disorders

DRG 210- Hip and femur
                                          7.5    6.8    6.5      6.4         6.4          -1.1
procedures except major joint

DRG 209- Major joint and limb
                                          5.7    5.2    4.8      4.8         4.7          -1.0
reattachment

DRG 121- Circulatory disorders
                                          9.2    8.7    8.5      8.4         8.3          -0.9
w/acute myocardial infarction

DRG 296- Nutritional and misc.
                                          6.7    6.3    6.0      6.1         5.9          -0.8
metabolic disorders

DRG 148- Major small and
                                          13.8   13.5   12.9     13.2       13.1          -0.7
large bowel procedures

DRG 127- Heart failure and
                                          7.2    6.8    6.6      6.6         6.5          -0.7
shock

DRG 089- Simple pneumonia
                                          7.9    7.6    7.3      7.2         7.2          -0.7
and pleurisy

DRG 088- Chronic obstructive
                                          7.4    7.1    6.7      6.8         7.0          -0.4
pulmonary disease

DRG 106- Coronary bypass
                                          11.9   11.3   10.9     11.7       12.0          +0.1
with PTCA

                                                               Source: National Claims History File



  Medicare Beneficiary Access to HHAs: 2000        14                                  OEI-02-00-00320
                                                                               APPENDIX E



                                       Agency Comments


    In this appendix, we present the comments from the Health Care Financing
    Administration.




Medicare Beneficiary Access to HHAs: 2000     15                                 OEI-02-00-00320
Medicare Beneficiary Access to HHAs: 2000   16   OEI-02-00-00320
Medicare Beneficiary Access to HHAs: 2000   17   OEI-02-00-00320
Medicare Beneficiary Access to HHAs: 2000   18   OEI-02-00-00320
